No. 19-1056
IN THE

Supreme Court of the United States
_________
KRISTI NOEM, Governor of South Dakota, et al.,
Petitioners,
v.
FLANDREAU SANTEE SIOUX TRIBE,
Respondent.

CERTIFICATE OF SERVICE
I, Adam G. Unikowsky, hereby certify that I am a member of the Bar of this
Court, and that I have this 20th day of April 2020, caused a paper copy of the Brief in
Opposition to be delivered to the Court via overnight mail and an electronic version of
the document to be transmitted via the Court’s electronic filing system to:
Paul S. Swedlund
Office of the Attorney General
1302 E. Highway 14
Suite 1
Pierre, SD 57501-8501
(605) 773-5402
paul.swedlund@state.sd.us
Counsel for Kristi Noem, et al.

/s/Adam G. Unikowsky
Adam G. Unikowsky

